I

I

CERTIFICATE OF SERVICE
I hereby certify that I have filed Original of the foregoing with the Clerk
of the Court for the Supreme Court of the United States by USPS First Class
Mail, and a copy to Respondent law firm addressed below by USPS First Class
Mail on August 7, 2021.
Clerk
Supreme Court of the United States,
1st- Street, NE
Washington, D. C. 20543
Rebecca A. Watkins, esq.
Sather, Byerly & Holloway, LLP
1200 SW Main Street
Portland, OR 97205
Shantubhai N. Shah, Pro Se
Petitioner

19

